E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-366

DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, ET AL.,
Appellants,
v.
STATE OF NEW YORK, ET AL.,
Appellees.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE NATIONAL CONGRESS OF AMERICAN INDIANS IN SUPPORT OF APPELLEES
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 6320 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 16th day of November, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

ore | Kens 0 thaw Ondiatt he

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40269
